No.
IN THE
SUPREME COURT OF THE UNITED STATES
ALIAL-MAQABLH,
Applicant/Petitioner,
v.
BOBBY TEMPLE et. al.,
Respondents.

APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT
OF CERTIORARI TO THE SIXTH CIRCUIT COURT
OF APPEALS
APPT ,TH ATTON TO THE HONORABLE JUSTICE
BRETT M. KAVANAUGH AS CIRCUIT JUSTICE

AH Al-Maqablh
2901 Rio Rita Ave. #27
Louisville, KY 40220
502-653-9699

RECEIVED
OCT 1 3 2021
SUPREME^OnRfS^^

APPLICATION FOR AN EXTENSION OF TIME
Pursuant to Supreme Court’s Rule (“Sup. Ct. R.”) 13.5 of the Rules of this
Court, Applicant Ali Al-Maqablh hereby requests a 60-day extension of time within
which to file a petition for a writ of certiorari seeking review of the decision of the
United States Court of Appeals for the Sixth Circuit, up to and including Monday
December 20, 2021.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment for which review is sought is Ali Al-Maqablh v. Bobby Temple,
et al., No. 20-5435, (March 4, 2021) (attached as Exhibit A). The Court of Appeals for
the Sixth Circuit denied Applicant’s motion for rehearing on July 22, 2021 (attached
as Exhibit B).

JURISDICTION
This Court will have jurisdiction over any timely filed petition for certiorari in
this case pursuant to 28 U.S.C. § 1257. Under Sup. Ct. R. 13.1, 13.3, and 30.1, a
petition for a writ of certiorari is due to be filed on or before October 20, 2021. In
accordance with Rule 13.5, this application is submitted more than ten (10) days prior
to the scheduled filing date for the Petition.

REASONS EXTENSION IS JUSTIFIED
Under Rule 13.5, “[a]n application to extend the time to file shall set out the
basis for jurisdiction in this Court, identify the judgment sought to be reviewed,
l

include a copy of the opinion and any order respecting rehearing, and set out specific
reasons why an extension of time is justified.” Sup. Ct. R. 13.5.
Applicant, pro se, respectfully requests a 60-day extension of time due to his
difficulty in securing an attorney. The issues in this appeal are complex and most
competent attorneys and Legal Practicums contacted expressed concern with the
current briefing deadlines. This is particularly true because the Court of Appeals for
the Sixth Circuit denied Applicant’s Petition for a rehearing en banc on July 22, 2021,
when most law clinics were on summer break. Since the recommencement of the
academic year, the Applicant has contacted several law clinics and attorneys who
have shown interest in representing him but expressed concerns with time
constraints. The Northwestern Supreme Court Practicum, in particular, expressed
interest in lending a hand but expressed concern with the time. Hence, an extension
of time will facilitate the process of preparing a well-researched and well-founded
petition by the end of this academic semester (December 2021).

CONCLUSION
For the foregoing reasons, the Applicant respectfully requests that this Court
grant an extension of 60 days, up to and including December 20, 2021, within which
to file a petition for a writ of certiorari in this case.

2

Respectfully submitted,
7

AuAi-Maqablh
2901 Rio Rita Ave. #3
Louisville, KY 40220
502-653-9699

CERTIFICATE OF SERVICE
I hereby certify that on October 4, 2021,1 have mailed a copy of the foregoing to
Perry T. Ryan, Counsel for the respondents at 1024 Capital Center Drive, Suite 200
Frankfort, Kentucky 40601.

3

